No. 19-403
INTHE

~upreme QCourt of tbe Wniteb ~tateg
ALABAMA-COUSHATTA TRIBE OF TEXAS,

Petitioner,
v.
STATE OF TEXAS,

Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 20th day of December, 2019, I caused three copies of the Reply Brief for
Petitioner to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Kyle D. Hawkins

SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL

P.O. Box 12548 (MC 059)

Austin, TX 78711

(512) 936-1700
kyle.hawkins@oag.texas.gov

